Semiannual Report To Congress
        October 1, 2010 - March 31, 2011

    Fiscal Year 2011 Semiannual Report No. 1
                                   Office of Inspector General


                                 NATldONAL&
                                 COMMUNITY
                                 SERVICE ............
                                                     April 29, 2011



Patrick Corvington
Chief Executive Officer
Corporation for National and Community Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Mr. Corvington:

        I am pleased to present you with the Office of Inspector General's Semiannual Report to
Congress for the first half of Fiscal Year 2011. This report details our significant audits and
investigations, as well as major issues and trends identified by the OIG, during the period
October 1,2010, to March 31,2011.

        Issuance of this Semiannual Report to Congress is required under the Inspector General
Act of 1978, as amended. The Act also requires that you submit this report, along with your
comments, to Congress and members of the Corporation's Board of Directors by May 27,2011 .
Our office will supply you with additional copies of the final report, including your comments, to
help you fulfill this requirement.

       If you have any questions about this report, please call me at (202) 606-9377.




                                                     :Z~
                                                     Acting Inspector General




                   120 I New York Avenue, NW *          *
                                                 Suite 830  Washington, DC 20525
                       202-606-9390 *                     *
                                      Hotline: 800-452-8210  www.cncsoig.gov

                        Senior Corps * AmeriCorps * Learn and Serve America
                                                                                                    Table Of Contents


A Message From Acting Inspector General Kenneth Bach .................................. 1

Audit Section ............................................................................................................ 3
      Audit Results ................................................................................................................................ 5
      Significant Issues ........................................................................................................................ 6
      Proposed Management Decisions With Which The OIG Disagreed ....................................... 7

Investigations Section ............................................................................................. 9
      Investigative Results ................................................................................................................. 11
      Significant Cases And Activity ................................................................................................. 11

Review Of Legislation And Regulations .............................................................. 13
      Conference Planning Policy Concerns .................................................................................... 15
      Incomplete Sex Offender Registry Searches .......................................................................... 15
      Grantee Use of the Name ‘AmeriCorps’ .................................................................................. 16

Statistical And Summary Tables .......................................................................... 17
      I.      Inspector General Act Reporting Requirements ........................................................... 19
      II.     Audit Reports Issued ....................................................................................................... 20
      III.    Reports With Questioned Costs ..................................................................................... 21
      IV.     Reports With Recommendations That Funds Be Put To Better Use .......................... 22
      V.      Summary of Audits With Overdue Management Decisions ......................................... 23
      VI.     Reports Described In Prior Semiannual Reports Without Final Action ...................... 24
      VII. Peer Reviews ..................................................................................................................... 24
      VIII. Plain Writing Act ............................................................................................................... 24


                              About The Office Of Inspector General
In 1993, Congress created the Corporation for National and Community Service (Corporation), along
with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
U.S.C. §§ 12501-681). Independent of the agency we oversee, and led by a presidential appointee,
the OIG conducts audits and investigations of Corporation programs, including AmeriCorps,
Volunteers In Service to America (VISTA), the National Civilian Community Corps, Learn and Serve
America, and Senior Corps. The OIG also examines Corporation operations, and State community
service programs that receive and distribute the majority of Corporation grant funds. Based on the
results of our work, and in addition to its audit reports and criminal and civil referrals based on our
investigations, the OIG recommends to the Corporation policies to promote economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
six months of Fiscal Year (FY) 2011. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.
                                                Inspector General’s Message


                 A Message From Acting Inspector
                           General Kenneth Bach
April 29, 2011

I am pleased to share with you this Semiannual Report to
Congress, which details the activities and performance of the
Office of Inspector General (OIG) for the first half of Fiscal
Year 2011.

During this period, the OIG continued to focus its resources on
proactive audit and investigative efforts designed to enhance
the overall efficiency and performance of the Corporation for
National and Community Service (Corporation) and to
safeguard Federal taxpayer dollars invested in Corporation
programs.

Our Audit Section issued seven reports, including three
grantee audits that identified more than $355,000 in
questioned costs and more than $306,000 that could be put to
better use. Our Investigations Section opened 19 cases,
closed 11 cases, recovered more than $154,000, and
identified more than $1.6 million in potential recoveries from
individuals and grantee organizations found to have engaged
in fraud, waste and abuse.

During this period the OIG went to new lengths to achieve its mission. A team of Special Agents was
dispatched to American Samoa to investigate allegations of widespread abuses by officials of the
American Samoa Special Services Commission (ASSSC), which administers the AmeriCorps
program in the U.S. Territory. The investigation was triggered by the Audit Section’s review of
ASSSC that questioned more than $400,000 in grant costs, including more than $121,000 of
Recovery Act funds.

The OIG’s investigative findings, which included misuse of government equipment, abuse of
Federally financed travel funds, indications of outright fraud and a lack of financial controls, were
referred to the Department of Justice. We also recommended on January 21, 2011, that the
Corporation terminate all grants to ASSSC. ASSSC has been closed by the American Samoa
Government. Further, the Corporation announced that it was closing its grants with ASSSC and
would delay any new awards until the completion of our investigation.

Acting on a request from the Corporation, our Audit Section launched an examination of the grantee
selection process for the Social Innovation Fund (SIF), a new Corporation initiative which allocated
$50 million to nonprofit entities in FY 2011 to develop new service initiatives and best practices for
their implementation. The SIF review is part of our shift in focus to a mix of largely staff-produced
audits that involve the Corporation’s internal processes, policies, procedures and programs. Results
of the SIF audit will be reported in a subsequent Semiannual Report to Congress. At the same time,
we are continuing with an ambitious, proactive program of external audits of grantees on financial and
compliance issues, utilizing the services of Independent Public Accounting firms.

This reporting period also marked the debut of our Intelligence Operations Section (IOS), which is
equipped to develop vital information and leads for auditors and investigators. Our goal is to assure
timely detection and interdiction of individuals and programs that misuse or mishandle Corporation
grant funds.


October 1, 2010 – March 31, 2011                                                                1
Inspector General’s Message

 Housed in the Investigations Section, IOS analysts utilize a number of high-tech data mining tools
 and sources to support agents and auditors with background and other vital information. This makes
 for more efficient use of time spent in the field. It also enhances our risk assessment capabilities in
 determining targets for proactive audits and investigations.

 The IOS project was one of several resource and skill-set upgrades we enacted during this reporting
 period. They included significant improvements to our information technology infrastructure and key
 staff additions that better positioned us to achieve our mission.

 We also reorganized and strengthened our Support Section under the newly created position of
 Administrative Officer. The Support Section is now better focused on meeting the day-to-day needs
 of investigators and auditors. It has further been able to efficiently meet the budgetary challenges of
 the series of Continuing Resolutions that encompassed this reporting period.

 The OIG continued its ambitious education and outreach efforts during this period. This included
 participation in the Corporation’s “Gem Series” employee training program, for which our staff
 presented a program called “Demystifying the OIG” to a large number of headquarters and field
 employees. In addition, our Special Agents continued to conduct Fraud Awareness Briefings and
 Audit staff participated in a major grantee training event. We further provided all new Corporation
 employees with briefings on the OIG’s role and activities as part of their on-boarding orientation.

 I am proud of my professional staff’s many achievements during this period and I am confident that
 the OIG is better equipped than ever to protect Federal funds by detecting and deterring fraud, waste,
 and abuse.


 /s/

 Kenneth Bach
 Acting Inspector General




 2                                                           October 1, 2010 – March 31, 2011
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




October 1, 2010 – March 31, 2011                                        3
                                                                                  Audit Section


Audit Results

 During this reporting period, the OIG Audit Section issued seven reports, including three grantee
 audits. The grantee audits questioned more than $355,000 in claimed costs and recommended that
 more than $306,000 in funds be put to better use. There were 13 audits in process at the end of this
 period.

 Of special note is the fact that our audits of the Corporation’s Fiscal Year 2010 Financial Statements
 and National Service Trust Schedules resulted in clean opinions and no material weaknesses.
 However, we found two significant deficiencies related to the Corporation’s information technology
 (IT) and Fund Balance with Treasury (FBWT). Specifically, the Corporation’s internal control
 structure for general IT systems and significant applications, which support the financial reporting
 process, did not support a sound control environment related to application business processes,
 logistical access and audit log monitoring. The second significant deficiency involved the
 Corporation’s FBWT reconciliation process. We found that it inhibited a full and complete
 reconciliation between the Corporation’s general ledger and Department of the Treasury balances.

 On the IT front, our FY 2010 Federal Information Security Management Act (FISMA) Independent
 Evaluation of the Corporation’s systems found that the Corporation took significant steps to enhance
 its IT security program and address issues identified in prior FISMA evaluations. The evaluation did,
 however, identify the following concerns:

        Physical and data security weaknesses in several Corporation field offices.

        Network configuration and desktop security control issues.

        A Corporation contractor which handles personally identifiable information was significantly
         deficient in information security practices and non-compliant with Federal standards.

 The Corporation concurred with our FISMA findings and is in the process of correcting the noted
 deficiencies.

 The Audit Section continued its expanded efforts to keep current and potential grantees informed on
 topics ranging from audit planning and execution to resolution matters. We participated in the
 November 2010 Financial and Grants Management Institute in Dearborn, MI, an annual Corporation
 event that addresses a wide array of financial and administrative issues of interest to the grantee
 community. One of our audit managers presented a plenary session on audit preparedness and
 smaller sessions on fraud indicators to approximately 300 attendees. Each presentation featured
 question and answer sessions that provided attendees with the OIG’s perspective on commonly
 reported audit findings and the relationship between audits and investigations.

 Another outreach opportunity came in March 2011 as the OIG delivered to Corporation staff a
 presentation titled, “Demystifying the OIG”. This session, jointly presented by audit and investigations
 staff, provided both veteran and recently hired Corporation headquarters and field employees with
 insights into how the OIG is organized, what functions we perform, and how our audit and
 investigative efforts tie in to civil and criminal prosecution activities. Our presentation also focused on
 how program officials can communicate their concerns via our Fraud Hotline.




 October 1, 2010 – March 31, 2011                                                                     5
Audit Section

Significant Issues
 Report 10-06 - Agreed-Upon Procedures for Corporation Grants Awarded to the American
 Samoa Special Services Commission

 The OIG completed a review that found serious problems in many aspects of the AmeriCorps
 program administered by American Samoa Special Services Commission (ASSSC). ASSSC has
 received more than $7 million in Federal funds since 2001 to operate the AmeriCorps program in
 American Samoa, a U.S. Territory in the South Pacific. The review, which focused on recent
 Corporation grants totaling more than $4.8 million, questioned more than $400,000 in claimed costs
 and education awards given to AmeriCorps members.

 The reviewed grants included a $375,000 outlay to ASSSC made under the American Reinvestment
 and Recovery Act (ARRA). The auditors questioned more than $121,000 of ASSSC’s claimed ARRA
 grant costs.

 The auditors reported a lack of financial systems and controls to track and account for Federal grant
 funds. For example, computers purchased with taxpayer funds for ASSSC’s office were found in the
 homes of officials and employees, who were also given routine salary advances, overtime pay and
 compensation for questionable or non-existent official travel.

 The auditors further found that ASSSC’s AmeriCorps programs had weaknesses in AmeriCorps
 members’ timekeeping procedures and, in some instances, timesheets did not support member
 eligibility for education awards.

 Based on the OIG’s management alert to the Corporation, the agency quickly suspended ASSSC’s
 access to Federal grant funds and placed it on a manual draw of funds. The decision required
 ASSSC to submit proof of appropriate expenses before being allowed access to Federal funds for
 reimbursement.

 The OIG also recommended on January 21, 2011, that the Corporation terminate all grants to
 ASSSC.

 Audit Report 11–05 - Audit of Grants Awarded to U.S. Committee for Refugees and Immigrants

 The OIG questioned claimed Federal-share costs of $35,043, in education awards and accrued
 interest payments related to members’ service under the terms of the grant, but funded outside of the
 grant by the Corporation’s National Service Trust, of $201,432 and $8,054, respectively. We noted
 that the grantee lacked effective procedures to verify AmeriCorps members’ hours by reviewing
 timesheets. It instead reviewed time and attendance data that had been entered into the
 Corporation’s former Web-Based Reporting System (WBRS). The auditors also noted instances of
 noncompliance with Federal laws, regulations and grant award provisions.

 Audit Report 10–11 - Agreed-Upon Procedures of Grants Awarded to the Research Foundation
 of the City University of New York

 The OIG received the Corporation’s Draft Management Decision on our grant review of the Research
 Foundation of the City University of New York (RFCUNY). The Corporation concurred with most of
 our recommendations and disallowed the entire $180,195 in questioned grant costs and education
 awards. Our review had questioned $5,370 as unallowable grant costs, $174,825 of education
 awards, and found numerous and pervasive instances of noncompliance with Federal laws,
 regulations and grant award provisions. We further determined that RFCUNY had inadequate
 controls for treating match costs in its accounting system, did not accurately report match costs, and
 did not ensure match costs were adequately supported.

 Additionally, we reported that RFCUNY’s management exhibited a lack of understanding of cost
 principles, grant provisions, and general grant accounting guidelines. We determined that lack of


 6                                                          October 1, 2010 – March 31, 2011
                                                                                 Audit Section

 proper monitoring of the fiscal and programmatic activities by RFCUNY allowed cited conditions to
 exist and persist. Also, officials of RFCUNY’s joint grantee Hunter College, and subgrantee/partner
 Uncommon Knowledge and Achievement (UKA), were found to be unaware of grant provisions, laws
 and regulations, and they had been provided with incorrect guidance on these issues by RFCUNY.

 Citing the fact that the same findings had been reported in a previous OIG audit of RFCUNY and a
 lack of subsequent corrective action by the grantee, we recommended that the Corporation not renew
 its grant to RFCUNY. The Corporation did not respond to this recommendation.

 Audit Report 11-04 - Evaluation of Grant Monitoring by the Corporation for National and
 Community Service

 As part of our increased emphasis on examinations of internal Corporation operations, we reviewed
 grantee monitoring activities conducted in FYs 2008 and 2009 to determine whether the Corporation
 maintained adequate support for its findings and conclusions and adhered to its monitoring policies.

 In our interviews with program officers, some individuals with responsibility for monitoring the financial
 requirements of grantees stated they had either inadequate or no formal training for this vital task.
 We recommended that all program officers be provided with the needed training. Our evaluation also
 identified several lapses in the scheduling and documentation of grantee monitoring.

 Corporation management agreed with all of our recommendations, and has taken steps to provide
 training on financial issues to its program officers and other staff involved in grantee monitoring.


Proposed Management Decisions With Which The OIG Disagreed
 The OIG did not entirely concur with the Corporation’s Management Decisions for the following
 reports:

        Report No. 10-11, Agreed-Upon Procedures for Corporation for National and Community
         Service Grants Awarded to Hunter College/Research Foundation of the City University of
         New York

        Report No. 10-12, Agreed-Upon Procedures for Corporation for National and Community
         Service Grants Awarded to American National Red Cross

        Report No. 10-14, Agreed-Upon Procedures of Corporation for National and Community
         Service Grants Awarded to the Missouri Community Service Commission

 Our disagreements centered on the following issue:

 Incomplete Searches of National Sex Offender Public Registry (NSOPR)

 The Corporation did not concur with OIG recommendations in two reports which determined that the
 grantees had not ensured that NSOPR searches were conducted of all state databases for certain
 members. The grantees stated that some state databases were “temporarily unavailable” when the
 searches were conducted. Subsequent searches to access the missing data were not conducted by
 the grantees.

 45 C.F.R. §2540.203(b) states that the National Sex Offender Public Registry check must be
 conducted on an individual who is serving, or applies to serve, in a covered position on or after
 November 23, 2007. 45 C.F.R. §2540.201 states that any individual who is registered, or required to
 be registered, on a state sex offender registry is deemed unsuitable for, and may not serve in, a
 position covered by suitability criteria.




 October 1, 2010 – March 31, 2011                                                                    7
Audit Section

 The Corporation’s management decision stated the Federal regulations do not require that system
 connectivity be functioning for all 50 states when the NSOPR is conducted.

 We believe that the intent of the Kennedy Serve America Act requires a search of all 50 states. The
 Act’s requirement that the search include all AmeriCorps members and grant-funded staff in the
 searches of all 50 states emphasizes the seriousness with which the Act treats the subject of sex
 offenders. We believe that failure to conduct NSOPR searches of all state databases, which may
 require multiple searches by the grantee to capture all data, could potentially result in ineligible
 individuals entering the program, and could jeopardize the safety of those being served.

 The Corporation also stated during this reporting period that it would consider OIG recommendations
 to check all databases in a planned review and revision of its’ criminal history check regulations.
 However, when the Corporation published its proposed rule for comment in the Federal Register, it
 did not include this issue.




 8                                                         October 1, 2010 – March 31, 2011
                                   Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activity involving
                   the Corporation’s employees, contractors, and grant
                   recipients. Criminal investigations are presented to the
                   U.S. Attorney or, in some cases, the local prosecutor for
                   criminal prosecution and monetary recovery, where the
                   facts uncovered so warrant. Some investigative reports
                   are referred to Corporation management for its
                   administrative action.




October 1, 2010 – March 31, 2011                                         9
                                                               Investigations Section


Investigative Results
 During this reporting period, the OIG Investigations Section opened 19 new cases and closed 11,
 including 8 actions with significant findings. Our efforts resulted in the recovery of more than
 $154,000 in taxpayer funds and the potential recovery of more than $1.6 million from persons and
 programs found to have engaged in fraud, waste, or abuse of Corporation resources.

 Our investigations also resulted in one individual pleading guilty and being sentenced to six months of
 confinement, followed by three years of probation, for misusing Federal Program funds. Nine other
 matters are pending adjudication. Also, based on our referrals to Corporation management, four
 individuals were debarred from participating in Federal contracts or grants.

 During this reporting period, our Intelligence Operations Section (IOS) was established with the goal
 of supporting investigators and auditors with timely, in-depth data and leads. During this reporting
 period, information developed by IOS analysts led to the opening of two ongoing audits and one
 investigation. The IOS is further being utilized to conduct reviews of ongoing cases and provide
 background information and leads to our Special Agents and auditors.

 The Investigations Section consists of an Assistant Inspector General for Investigations, seven
 Special Agents with full Federal Law Enforcement Authority and an investigative assistant. The
 Investigations Section met the challenge of pursuing wrongdoers in Corporation operations that
 include thousands of grantees and subgrantees in all 50 states and U.S. territories. We were
 assisted in our work by 51 calls, letters and e-mails to our Fraud Hotline and by referrals from
 Corporation managers, employees and program participants.


Significant Cases And Activity
 Corporation Internal Investigations

 During this reporting period, we conducted two investigations involving Corporation employees. In
 one case, we determined that two Corporation employees had violated ethics rules by allowing their
 names and positions to be used in a website-published endorsement for a company doing business
 with the Corporation.

 In another action, we determined that a Corporation employee routinely worked about six hours a day
 over a three-month period, but certified on timesheets that the employee had worked a full, eight-hour
 day. The employee wrongfully received more than $3,400 based on the falsified timesheets.

 Significant Cases

 We initiated an ongoing investigation of the executive director and 14 other individuals, including
 commissioners, of the American Samoa Special Services Commission (ASSSC) for misusing Federal
 program funds. Our investigation determined the executive director and other targets used Federal
 program funds for private travel, filed false travel vouchers, purchased property with Federal grant
 funds for private use and used grant funds to make payments on an automobile loan. The loss to the
 Government is estimated at more than $400,000. As a result of our investigation, which was
 triggered by an OIG audit, the OIG on March 18, 2011, recommended that the Corporation suspend
 all ASSSC grants. We are continuing our investigation and will report the results in a subsequent
 Semiannual Report to Congress.

 In another action, we found that program officials at a Senior Companion Program (SCP) in Iowa
 double billed the Corporation and Iowa MEDICAD for the same volunteer service hours and that the
 service of two SCP volunteers was not in compliance with SCP guidelines. The investigation
 determined the program officials double billed more than $35,000 and misused more than $7,000 in


 October 1, 2010 – March 31, 2011                                                                11
Investigations Section

 program funds when they allowed one volunteer to exceed the maximum limit on volunteer hours and
 the other to provide service that was not in compliance with the grant. The investigation was
 presented to the Department of Justice, which declined it for criminal prosecution due to the low dollar
 amount. The matter was referred to Corporation management, which issued a demand letter to the
 SCP program to repay more than $42,000.

 We completed the previously reported investigation of a former VISTA member in Texas who
 admitted to using another individual’s identity so she could enroll in a VISTA program. The former
 member was ineligible for VISTA because she is an undocumented alien. The former VISTA member
 was sentenced in Federal court to six months of confinement, followed by three years of non-
 supervised release and ordered to pay restitution totaling more than $69,000. The matter was
 referred to Corporation management and the former VISTA member was debarred from participating
 in Federal contract or grants for three years. The VISTA project director, who knowingly enrolled the
 former member and knew of her ineligibility, was also debarred for two years.




                                              Summary Of Cases
 Opened and Closed
   Cases Open at Beginning of Reporting Period                                                            26
   New Cases Opened                                                                                       19
   Cases Closed this Period W ith Significant Findings                                                    8
   Cases Closed this Period W ith No Significant Findings                                                 3
   Total Cases Closed                                                                                     11
   Cases Open at End of Reporting Period                                                                  34
 Referred
   Cases Referred for Prosecution                                                                         5
   Cases Accepted for Prosecution*                                                                        4
   Cases Declined for Prosecution*                                                                        2
   Cases Pending Prosecutorial Review                                                                     1
   Cases Pending Adjudication                                                                             9
 Recommendations to Management
   Investigative Recommendations Referred to Management                                                   9
   Investigative Recommendations Pending Management Action this Reporting Period                          6
   Investigative Recommendations Pending Management Action from Previous Reporting
                                                                                                          1
   Periods

 *This includes cases referred for prosecution during the previous reporting period.




 12                                                                               October 1, 2010 – March 31, 2011
                            Review Of Legislation And
                                         Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The Office of Inspector
                   General reviews legislation and regulations to determine
                   their impact on the economy and efficiency of the
                   Corporation’s administration of its programs and
                   operations.        It   also    reviews    and    makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud and abuse in Corporation programs and
                   operations. The Office of Inspector General draws on
                   its experience in audits and investigations as the basis
                   for its recommendations.




October 1, 2010 – March 31, 2011                                       13
                                 Review Of Legislation And Regulations


Conference Planning Policy Concerns

 During this reporting period, the OIG reviewed the Corporation’s Conference Planning Policy to
 determine its adherence to the requirements of the Federal Travel Regulation. The OIG found that
 the Corporation’s policy lacked the essential planning criteria contained in the Federal Travel
 Regulation, which is designed to ensure that conference costs result in the greatest advantage to the
 Government.

 For example, we found that the Corporation’s policy lacked instruction that government-owned
 facilities should be used as much as possible; that teleconferencing be considered as an alternative;
 and that cost comparisons be made of the each proposed conference site location based on
 established Federal per diem rates, the convenience of site, and the travel distances for Federal
 employees to attend the conference. The policy also lacked the instruction, required by the Federal
 regulation, that written documentation be maintained for the alternatives considered for a conference
 site and the rationale for the final selection. Instead, we found the Corporation’s policy was limited to
 an instruction that a planner consider three sites, and that the planner minimize administrative and
 travel costs by limiting the number of Corporation attendees.

 In November, 2010, the OIG submitted its analyses to Corporation management, noting the
 deficiencies in the current policy and its’ variances with the Federal regulation, and recommended
 that it be revised to make it consistent with the Federal regulation’s standards. To date, no proposed
 revision of the Conference Planning Policy has been issued by the Corporation.


Incomplete Sex Offender Registry Searches

 As noted previously in the Audit Section of this report, the Corporation has disagreed with OIG audit
 recommendations that grant recipients follow up on incomplete searches of sex offender registries
 caused by connectivity problems between state registries and the National Sex Offender Public
 Registry (NSOPR) website.

 The OIG has since found that the Corporation gives affirmative guidance to grantees on its website
 and in training sessions on the subject of the background check rule. The guidance states that, even
 where there are temporary connectivity problems between the state registries and the NSOPR
 website, grantees “are only required to perform the check one time.” The OIG has informed the
 Corporation that this instruction is contrary to the Kennedy Serve America Act’s requirements that
 grantees determine that all individuals in Corporation-funded positions are not included in any state
 sex offender registries, and thus ineligible to serve in Corporation programs. We recommended that
 the Corporation modify its instructions to grantees that a complete, 50-state registry search be
 conducted, even if this entails multiple NSOPR searches. The OIG will report on the Corporation’s
 response in a subsequent Semiannual Report to Congress.

 In a related matter, Corporation issued, for public comment in the Federal Register, revisions it
 proposes to make to its current criminal background check regulation. The revisions would institute
 the Kennedy Serve America Act’s requirement that FBI fingerprint checks be conducted on all
 individuals in Corporation-funded positions that place them in contact with the young, elderly, or
 disabled. The OIG plans to recommend in the public comment phase that the current regulation also
 be amended to direct grantees to verify that all 50 state sex offender registry databases have been
 searched for applicants to Corporation-funded positions.




 October 1, 2010 – March 31, 2011                                                                 15
                               Review Of Legislation And Regulations

Grantee Use of the Name ‘AmeriCorps’

 The OIG determined that several Corporation grant recipients use the word “AmeriCorps” as a part of
 their official legal titles. We are concerned that this practice violates Corporation regulations
 restricting the use of Corporation program names, logos, and insignias, and might create the
 impression among the general public that the Corporation sanctions, endorses, or even operates
 these independent organizations. We brought this issue to Corporation management’s attention. It
 agreed that the practice was a cause for concern, has informed affected grantees that they may not
 use “AmeriCorps” as part of their official titles, and is developing a policy to cover the issue.




 16                                                        October 1, 2010 – March 31, 2011
                                             Statistical And
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




October 1, 2010 – March 31, 2011                                    17
                                                                                        Tables

I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                13

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses
                   and deficiencies found in the administration of Corporation       Throughout
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         24
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        12

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of      20
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      21
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      22
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        23
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector             7
                   General disagrees




 October 1, 2010 – March 31, 2011                                                             19
Tables

II.            Audit Reports Issued

                                               Audit Reports Issued
                                           October 1, 2010 – March 31, 2011
      Report                                                             Dollars        Dollars      Funds Put to
             Issue Date                   Report Name
      Number                                                           Questioned Unsupported Better Use
                                                                                 (Dollars in thousands)

       11-01     11/15/10 Audit of the Corporation for National and        $0             $0             $0
                          Community Service's Fiscal Year 2010
                          Financial Statements
       11-02     11/15/10 Audit of the Corporation for National and        $0             $0             $0
                          Community Service's Fiscal Year 2010
                          National Service Trust Schedules

       11-03     11/10/10 Federal Information Security Management          $0             $0             $0
                          Act (FISMA) Review for FY 2010
                          Corporation for National and Community

       11-04     10/15/10 Evaluation of Grant Monitoring by the            $0             $0             $0
                          Corporation for National and Community
                          Service
       11-05     11/24/10 Audit of Corporation for National and            $35            $0            $209
                          Community Service Grants Awarded to U.S
                          Committee for Refugees and Immigrants


       11-06     01/21/11 Agreed-Upon Procedures of Corporation for       $310           $45            $79
                          National and Community Service Grants
                          Awarded to the American Samoa Special
                          Services Commission

       11-07     03/17/11 Agreed-Upon Procedures for Corporation           $10            $0            $18
                          Grants Awarded to Serve Alaska


                                             TOTAL                        $355           $45            $306

  Inspector General Act [5(a) (6)]




  20                                                            October 1, 2010 – March 31, 2011
                                                                                             Tables

III.          Reports With Questioned Costs


                                                                    Federal Costs

                    Report Category                    Number Questioned       Unsupported
                                                                    (Dollars in thousands)
       A. Reports for which no management decision       6           $377                      $17
          had been made by the commencement of the
          reporting period

       B. Reports issued during the reporting period     3            355                          45

   C. Total Reports (A + B)                              9            732                          62

   D. Reports for which a management decision            5            151                          17
      was made during the reporting period

          I. Value of disallowed costs                                  45                         17

          II. Value of costs not disallowed                           106                           0

       E. Reports for which no management decision       4           $581                      $45
          had been made by the end of the reporting
          period (C minus D)

       F. Reports with questioned costs for which no     1           $226                          $0
          management decision was made within six
          months of issuance

  Inspector General Act [5(a)(8)]




  October 1, 2010 – March 31, 2011                                                            21
Tables

IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                     Report Category                   Number*       Dollar Value*
                                                                 (Dollars in thousands)

      A. Reports for which no management decision         5               $340
         had been made by the commencement of
         the reporting period

      B. Reports issued during the reporting period       3               $306
      C. Total Reports (A + B)                            8               $646

      D. Reports for which a management decision          4               $207
         was made during the reporting period
         i. Value of recommendations agreed to by                         $179
         management

          ii. Value of recommendations not agreed to                       $28
          by management

      E. Reports for which no management decision         4               $439
         had been made by the end of the reporting
         period

      F. Reports for which no management decision         1               $133
         was made within six months of issuance




  *The Audit Section predominately performed cost-incurred and compliance audits that resulted in
  questioned costs and noncompliance findings. These types of audits typically do not lead to
  recommendations that funds be put to better use.

 Inspector General Act [5(a)(9)]




 22                                                           October 1, 2010 – March 31, 2011
                                                                                                         Tables

V.        Summary of Audits With Overdue Management Decisions


                                                   Federal           Funds Put        Mgmt.
     Report                                        Dollars           To Better       Decision        Status as of
     Number                 Title                 Questioned            use           Due*          March 31, 2011
                                                                                                  The Draft
                                                                                                  Management
              Agreed-Upon Procedures Review                                                       Decision was
              of Corporation for National and                                                     received by the OIG
      10-17   Community Service Grants                 $226              $133          2/31/11    on March 22, 2011.
              Awarded to Greater Pittsburgh                                                       The OIG has thirty
              Literacy Council                                                                    days to review the
                                                                                                  decision.

                             Total                     $226              $133

  *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final management decision must
 be made within six months of the issuance of the final audit report and corrective actions must be completed within one
 year.


 Inspector General Act [5(a)(10)]




 October 1, 2010 – March 31, 2011                                                                           23
Tables

VI.       Reports Described In Prior Semiannual Reports
          Without Final Action


      Report                                                           Date           Final
      Number                         Title                            Issued       Action Due
                                     None



 Inspector General Act [5(a)(3)]


VII. Peer Reviews

 The Investigations Section’s most recent Peer Review Report was issued August 18, 2009, by the
 Railroad Retirement Board OIG (RRB-OIG). It stated: “The system of internal safeguards and
 management procedures for the investigative function of the CNCS OIG in effect for the year ended May
 2009 is in full compliance with the quality standards of the PCIE and the Attorney General Guidelines.
 The safeguards and procedures provide reasonable assurance that the CNCS OIG is conforming to
 professional standards in the conduct of its investigations.”

 RRB-OIG’s peer review also included several observations, all of which have since been addressed by
 our Investigations Section.

 Our Investigations Section’s next peer review is scheduled for the first quarter of 2012 and is to be
 conducted by the Department of Commerce OIG.

 The Audit Section’s most recent Peer Review Report was issued March 19, 2010, by the Nuclear
 Regulatory Commission OIG. It stated: “In our opinion, the system for quality control for the audit
 organization of CNCS OIG in effect for the year ended September 30, 2009, has been suitably designed
 and complied with to provide CNCS OIG with reasonable assurance of performing and reporting and
 conforming to professional standards in all material aspects. Federal audit organizations can receive a
 rating of pass; pass with deficiencies, or fail. CNCS OIG has received a peer review rating of pass.”

 The Audit Section’s next peer review will be conducted in FY 2013 by the Smithsonian Institution OIG.


VIII. Plain Writing Act

 During this reporting period, the OIG began implementation of the Plain Writing Act of 2010, which was
 signed into law by President Obama on October 13, 2010. The Director of Communications, who is
 coordinating our efforts, conducted a Plain Writing training seminar for the OIG staff on January 19,
 2011. In addition, all OIG documents and reports, including information available on our public website
 (www.cncsoig.gov), are being reviewed for clarity, conciseness, organization, and overall readability.




 24                                                         October 1, 2010 – March 31, 2011
           CORPORATION FOR NATIONAL AND
                COMMUNITY SERVICE

   OFFICE OF INSPECTOR GENERAL

                            Hotline

                                     We Want You to
                                     Report Fraud, Waste
                                     and Abuse!




                       All information is confidential.

                       You may remain anonymous.


              1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov


                                 Or write:

                           OIG HOTLINE
  Corporation for National and Community Service
       1201 New York Avenue NW, Suite 830
               Washington, DC 20525
